IN THE SUPREME COURT OF THE UNITED STATES

Certificate of compliance of word count.

1. The word count of the Brief for Rehearing complies with the
typeface requirements of the Century Family and contains
1807 words which includes only the parts of the Brief.
2. The Petition for Rehearing exceeds 1500 words and a table of
contents, and a table of cited authorities is included.
Compliance of Rule 29.2, and Rule 44.

Emma Serna

By
Emma Serna a/b/a. Serna & Associates
Construction Co., LLC Pro S^^)
«_
P.O. Box 65384
Ga.-.lAlbuquerque, New Mexico 87193
(505)321-1661

